U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Lisa M. Folajtar v. William P. Barr, Attorney General,
S.Ct. No. 20-812

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
11, 2020, and placed on the docket on December 15, 2020. The government’s response is due on
January 14, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0812
FOLAJTAR, LISA M.
WILLIAM P. BARR, ATTORNEY GENERAL

DAVID H. THOMPSON
COOPER & KIRK, PLLC
1523 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20036
202-220-9600
DTHOMPSON@COOPERKIRK.COM

